Department of Homeland Security
   Ofﬁce of Inspector General

      Information Technology Management Letter 

                    for the FY 2008 

       Federal Law Enforcement Training Center 

               Financial Statement Audit 

                      (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Freedom of Information Act will be conducted upon request.




OIG-09-63                                                                                         April 2009
                                                                                    Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                                       Washington, DC 25028




                                           April 27, 2009


                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the information technology (IT) management letter for the FY 2008 Federal
Law Enforcement Training Center (FLETC) consolidated balance sheet audit as of September 30,
2008. It contains observations and recommendations related to information technology internal
control that were not required to be reported in the financial statement audit report (OIG-09-09,
November 2008) and represents the separate restricted distribution report mentioned in that report.
The independent accounting firm KPMG LLP (KPMG) performed the audit of FLETC’s FY 2008
financial statements and prepared this IT management letter. KPMG is responsible for the attached
IT management letter dated December 5, 2008, and the conclusions expressed in it. We do not
express opinions on DHS’ financial statements or internal control or make conclusions on
compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036


March 26, 2009

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Federal Law Enforcement Training Center

Chief Financial Officer
U.S. Federal Law Enforcement Training Center

Ladies and Gentlemen:
We have audited the accompanying consolidated balance sheets of the U.S. Department of Homeland
Security’s (DHS) Federal Law Enforcement Training Center (FLETC) as of September 30, 2008 and
2007, and the related consolidated statements of net cost, and changes in net position, and combined
statements of budgetary resources (hereinafter referred to as “consolidated financial statements”) for the
years then ended. The objective of our audit was to express an opinion on the fair presentation of these
consolidated financial statements.
In connection with our fiscal year 2008 audit, we also considered FLETC’s internal controls over
financial reporting by obtaining an understanding of the FLETC’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our procedures. We limited our internal control testing to those controls necessary to
achieve the objectives described in Government Auditing Standards and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA).
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects FLETC’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of FLETC’s financial statements that is more than
inconsequential will not be prevented or detected by FLETC’s internal control over financial reporting. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.
We identified certain weaknesses during our audit engagement which we would like to bring to your
attention. These matters are also described in the IT General Control Findings by Audit Area section of
this letter.
The significant deficiency and other matters described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and is intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.




                                     KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                     a member of KPMG International, a Swiss cooperative.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key FLETC financial systems and information technology infrastructure within
the scope of the FY 2008 FLETC financial statement audit in Appendix A; a description of each internal
control finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our
comments related to financial management and reporting internal controls have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer dated March 26,
2009.

This report is intended solely for the information and use of FLETC management, DHS Office of
Inspector General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                                Department of Homeland Security 

                           Federal Law Enforcement Training Center 

                            Information Technology Management Letter
                                       September 30, 2008

                  INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                    TABLE OF CONTENTS 

                                                                                          Page


Objective, Scope and Approach                                                              1


Summary of Findings and Recommendations                                                    3


IT General Control Findings by Audit Area                                                  4


 Findings Contributing to a Significant Deficiency in IT                                   4


  Entity-wide Security Planning                                                            4


  Access Controls                                                                          4


  Application Software Development and Change Controls                                     4


  Service Continuity                                                                       5


   System Software                                                                         5


   Segregation of Duties                                                                   5


Application Control Finding                                                                8


Management Comments and OIG Response                                                       8


                                        APPENDICES


    Appendix                                      Subject                                 Page


                     Description of Key FLETC Financial Systems and IT Infrastructure
        A                                                                                  9
                     within the Scope of the FY 2008 FLETC Financial Statement Audit



        B            FY 2008 Notices of IT Findings and Recommendations at FLETC           11




                     Status of Prior Year Notices of Findings and Recommendations and 

        C            Comparison to Current Year Notices of Findings and Recommendations    25





        D            Management Comments                                                   31

                                   Department of Homeland Security 

                              Federal Law Enforcement Training Center

                               Information Technology Management Letter
                                          September 30, 2008

                              OBJECTIVE, SCOPE AND APPROACH

We were engaged to perform an audit of the Federal Law Enforcement Training Center’s (FLETC)
Information Technology (IT) general controls in support of the fiscal year (FY) 2008 FLETC financial
statement audit. The overall objective of our engagement was to evaluate the effectiveness of IT general
controls of FLETC’s financial processing environment and related IT infrastructure as necessary to
support the engagement. The Federal Information System Controls Audit Manual (FISCAM), issued by
the Government Accountability Office (GAO), formed the basis of our audit. The scope of the FLETC IT
general controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following six control functions to be essential to the effective operation of
the general IT controls environment.

�	 Entity-wide security program planning and management (EWS) – Controls that provide a framework
   and continuing cycle of activity for managing risk, developing security policies, assigning
   responsibilities, and monitoring the adequacy of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
�	 System software (SS) – Controls that limit and monitor access to powerful programs that operate
   computer hardware and secure applications supported by the system.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Service continuity (SC) – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

In the current year, FLETC performed a significant upgrade to its           financial reporting software
system, from version 3.7 to version 6.1. This upgrade occurred during the period of August 1, 2008 –
August 17, 2008 and was conducted by a third party, CACI, Inc. (“CACI”). As such, the automated
controls component of FLETC’s entity level controls was significantly changed during the period under
audit. In addition, there were several control weaknesses identified in the prior year that were not
mitigated due to reliance on the impending              application upgrade and the installation of new
hardware that would improve the overall IT general controls (ITGC) security structure at FLETC. We
designed our scope to perform a pre-conversion ITGC. After the               conversion, we returned to
FLETC to perform minimal ITGC test work over the new control environment.




                                                    1
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                  Department of Homeland Security 

                             Federal Law Enforcement Training Center

                              Information Technology Management Letter
                                         September 30, 2008

In addition to testing FLETC’s general control environment, we performed pre-conversion and post-
conversion application control tests on a limited number of FLETC’s financial systems and applications.
The application control testing was performed to assess the controls that support the financial systems’
internal controls over the input, processing, and output of financial data and transactions.

   �	 Application Controls (APC) - Application controls are the structure, policies, and procedures that
      apply to separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                   2
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                    Department of Homeland Security 

                               Federal Law Enforcement Training Center

                                Information Technology Management Letter
                                           September 30, 2008

                      SUMMARY OF FINDINGS AND RECOMMENDATIONS

Our audit procedures over IT general controls for FLETC included a review of its procedures, policies,
and practices. The IT portion of our audit disclosed matters involving the internal controls over financial
reporting and its operation that we consider to be a significant deficiency under standards established by
the American Institute of Certified Public Accountants (AICPA). We have noted deficiencies in the
design and operation of FLETC’s internal controls which could adversely affect the agency’s financial
statements. We noted deficiencies over entity-wide security planning, access controls, application
development and change control, system software, segregation of duties, and service continuity that have
contributed to the significant deficiency. The cumulative affect of the deficiencies identified should not
lead to material misstatements in the agency-wide financial statements. According to the AICPA, a
significant deficiency is a control deficiency, or combination of control deficiencies, that adversely affects
the entity’s ability to initiate, authorize, record, process, or report financial data reliably in accordance
with generally accepted accounting principles (GAAP) such that there is more than a remote likelihood
that a misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected.

During FY 2008, we noted that FLETC made minimal progress on its control weaknesses. Therefore,
many of the prior year Notices of Findings and Recommendations (NFR) could not be closed completely
due to the reliance on the impending                      application upgrade, the decommissioning of
                      and the installation of new hardware that would improve the overall ITGC security
structure at FLETC. As a result, there was one (1) prior year NFR closed, twenty (27) reissued NFRs, and
three (3) new NFRs issued to FLETC.

FLETC management should ensure that there is emphasis placed on the completion, monitoring and
enforcement of IT security-related policies and procedures. On-going measures to improve the IT
security considerations for key financial systems operated by FLETC and implement effective access
controls, segregation of duties and change controls need to be completed.

While the recommendations made by KPMG should be considered by FLETC, it is the ultimate
responsibility of FLETC management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.




                                                      3
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                    Department of Homeland Security 

                               Federal Law Enforcement Training Center

                                Information Technology Management Letter
                                           September 30, 2008


                       IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Findings Contributing to a Significant Deficiency in IT

During FY 2008, we noted the following IT and financial system control deficiencies that in aggregate are
considered a significant deficiency:


1	   Entity-wide Security Planning – we noted:

     �	 Incidents are not tracked from inception to resolution in an incident response management
        system.
     �	 Background investigations for contractors were not consistently performed.


2	   Access controls – we noted:
     �	 The following                  and                     access control weaknesses were identified:
         �	 Draft policies and procedures exist regarding immediate notification of                    and
                                 System administrators when users are terminated or transferred.
         �	 Password configurations for                       have been configured to permit passwords
            to be a minimum of eight characters in length with no complexity requirements, which is not
            in compliance with DHS 4300A Sensitive Systems Handbook.
     �	 Momentum security violation event audit logs are not reviewed.
     �	 Standard Operating Procedures (SOPs) for the use and installation of 

                (     technologies have been documented, but are not finalized. 

     �	 Security inspections for all         networks have not been completed.
     �	 Configuration Management weaknesses on                                   and the
                        were identified. These weaknesses included account management, auditing,
        database configuration and password management weaknesses.
     �	 Patch Management weaknesses on hosts and database supporting the 

        applications and 
                          were identified. Additionally, the same servers were
        identified as having excessive access privileges.


3	   Application Software Development and Change Controls – we noted:
     �	 Configuration management plans are in draft form for            and
        thus, the plans have not been authorized and fully implemented. Specifically, the following
        weaknesses were noted:



                                                       4
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                     Department of Homeland Security 

                                Federal Law Enforcement Training Center

                                 Information Technology Management Letter
                                            September 30, 2008


             -	    Lack of documented test plan standards and procedures;
             -	    Lack of documented guidance for bug fixes and enhancements, including the
                   emergency change process.

     �	 Excessive access privileges exist, which allows all FLETC domain level users to “modify, read,
        execute, and write” access to the            and            application program libraries.
     �	 System Development Life Cycle (SDLC) for                 is not finalized.


4	   Service Continuity – we noted:
     �                server level,                     and         database backups are not periodically
         tested.
     �	 The              contingency plan was tested in May 2008; however, the contingency plan was
        not updated to reflect the test results.


5	   System Software – we noted:
     �	 The installation of             system software has been logged since May 2008; however, the
        application capturing the data has not been fully implemented, nor are the logs being reviewed by
        FLETC management.


6	    Segregation of Duties:
     �                segregation of duties controls for the Accountant role was determined to be
         ineffective.


Recommendations: We recommend that the FLETC Chief Information Officer (CIO) and Chief Financial
Officer (CFO), in coordination with the DHS Office of Chief Financial Officer and the DHS Office of the
Chief Information Officer, make the following improvements to FLETC’s financial management systems
and associated information technology security program.


1 	 For Entity-wide Security Planning:
     �   No recommendations will be offered as both conditions were mitigated during the fiscal year.


2	   For Access Controls:
     �	 Continue with the projected plan for decommissioning the                application.
     �	 Continue to finalize and implement the “FM 4300: Information Technology System Security
        Program Policy”, which provides policies for the use of  technologies.


                                                    5
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                   Department of Homeland Security 

                              Federal Law Enforcement Training Center

                               Information Technology Management Letter
                                          September 30, 2008

     �	 Application System Administrators should review security and system-related event logs on a
        periodic basis.
     �	 Conduct a security inspection of the                        installations by completing the FLETC
               Security checklist.
     �	 Implement the corrective actions identified during the audit vulnerability assessment as identified
        in the issued NFR.
     �	 Perform periodic scans of the FLETC network environment, including the financial processing
        environment, for the identification of vulnerabilities, in accordance with National Institute of
        Standards and Technology (NIST) SP 800-42, and implement corrective actions to mitigate the
        risks associated with any vulnerabilities identified during periodic scans.


3	   For Application Software Development Change Controls:
     �	 Ensure that access to the              and                  program libraries are limited to
        only the Administrators group.
     �	 Fully implement the Change Control and Configuration Management SOP into the FLETC
        environment.
     �	 Continue with the projected plan for decommissioning the                  application.
     �	 Finalize and implement a SDLC methodology guide for               and ensure that security
        planning has been incorporated throughout the life cycle.
     �	 Ensure that the SDLC methodology is promulgated to all personnel involved in the design,
        development, and implementation process of the SDLC methodology.

4	    For service continuity:
     �	 Consistently apply the new CIO Backup SOP and periodically test the                  server lever
         and Oracle database backups at least annually in compliance with DHS Information Technology
         Security Program Publication 4300A.
     �	 Continue with the projected plan for decommissioning the                        application.
     �	 Ensure that the results of the            contingency plan test are reflected in the most recent
         application contingency plan.

5	    System Software:
     �	 Enable audit logging over the installation of                  system and ensure that logs are
         maintained and proactively reviewed by management.
     �	 Implement policies and procedures over audit logging of               system software.

6	    Segregation of Duties:
     �	 Evaluate the access rights for all roles within           and separate the duties for the creation
         and payment of vouchers.
     �	 Develop a process to ensure the segregation of duties between the Accountant roles is maintained.


                                                     6
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                   Department of Homeland Security 

                              Federal Law Enforcement Training Center

                               Information Technology Management Letter
                                          September 30, 2008


Cause/Effect: The FLETC did not expend the necessary time and resources to correct the
application weaknesses due to the impending upgrade in August 2008. In addition, at the time of the
prior year audit, FLETC had plans to replace Procurement Desktop with the DHS Enterprise-wide
procurement system         in August 2008; however, that implementation date was moved to October
2008. Therefore, the                    weaknesses identified in the prior year were left uncorrected.

Reasonable assurance should be provided that financial system user access levels are limited and
monitored for appropriateness. The weaknesses identified within FLETC’s access controls increases the
risk that employees and contractors may have access to a system that is outside the realm of their job
responsibilities. This access could allow a person to intentionally or inadvertently use various functions to
alter the integrity of executable files and scripts within the financial system.

The lack of documented configuration management procedures for financial application level bug fixes
and enhancements could lead to the risk of inadequate documentation for configuration management
changes. Without standardized test plans and procedures, programming flaws with an adverse effect on
FLETC’s operations could go undetected. Documented procedures will maintain consistency in the
implementation of established procedures. Also, the configuration and patch management weaknesses
identified in previous audits may increase the risk that the confidentiality, integrity, and availability of
system controls and the financial data could be exploited thereby compromising the integrity of financial
data used by management and reported in the DHS financial statements.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources,
and various NIST guidelines describe specific essential criteria for maintaining effective general IT
controls.


Federal Financial Management Improvement Act (FFMIA) sets forth legislation prescribing policies and
standards for executive departments and agencies to follow in developing, operating, evaluating, and
reporting on financial management systems. The purpose of FFMIA is: (1) to provide for consistency of
accounting by an agency from one fiscal year to the next, and uniform accounting standards throughout
the Federal Government; (2) require Federal financial management systems to support full disclosure of
Federal financial data, including the full costs of Federal programs and activities; (3) increase the
accountability and credibility of federal financial management; (4) improve performance, productivity
and efficiency of Federal Government financial management; and (5) establish financial management
systems to support controlling the cost of Federal Government. In closing, for this year’s IT audit we
assessed the DHS component’s compliance with DHS Sensitive System Policy Directive 4300A.




                                                     7
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                  Department of Homeland Security 

                             Federal Law Enforcement Training Center

                              Information Technology Management Letter
                                         September 30, 2008

                               APPLICATION CONTROL FINDING



During FY 2008, we noted the following application control weakness:


�               users were granted inappropriate superuser access during the post-conversion phase.


Recommendation: No recommendation will be offered as this weakness was remediated during FY 2008 upon
notification by KPMG.


                       MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the Director of FLETC. Generally, FLETC
agreed with all of our findings and recommendations. FLETC has developed a remediation plan to
address these findings and recommendations. We have incorporated these comments where appropriate
and included a copy of the comments at Appendix D.

OIG Response

We agree with the steps that FLETC management is taking to satisfy these recommendations.




                                                   8
    Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                              Appendix A

                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




                                    Appendix A

Description of Key FLETC Financial Systems and IT Infrastructure
within the Scope of the FY 2008 FLETC Financial Statement Audit




                                           9
Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                           Appendix A

                                 Department of Homeland Security 

                            Federal Law Enforcement Training Center

                             Information Technology Management Letter
                                        September 30, 2008


Below is a description of significant FLETC financial management systems and supporting IT
infrastructure included in the scope of the FY 2008 Financial Statement Audit engagement.

Location of Audit: FLETC Headquarters in                     and a FLETC field office in


Key Systems Subject to Audit:
   �                 FLETC’s core financial management system that processes financial documents
      generated by various FLETC divisions in support of procurement, payroll, budget and accounting
      activities. All financial, procurement and budgeting transactions where FLETC is involved are
      processed by

   �                            FLETC’s procurement management system, which is used for the tracking
       of procurement activities at various FLETC locations.                       is a system used to
       input requisitions for the acquisition of goods and services.                      purpose is to
       process contractual documents generated by FLETC in support of procurement activities. The
       system resides on an                        and the front-end of the system is integrated with




                                                 10
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                              Appendix B

                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




                                    Appendix B 


 FY2008 Notices of IT Findings and Recommendations – Federal 

              Law Enforcement Training Center





                                           11
Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                           Appendix B

                                  Department of Homeland Security 

                             Federal Law Enforcement Training Center

                              Information Technology Management Letter
                                         September 30, 2008




Notices of Findings and Recommendation – Definition of Risk Ratings:

The Notices of Findings and Recommendations (NFR) risk was ranked as High, Medium, and Low**
based upon the potential impact that each weakness could have on the DHS component’s information
technology (IT) general control environment and the integrity of the financial data residing on the DHS
component’s financial systems, and the pervasiveness of the weakness.

**The risk ratings are provided solely to assist management with prioritization of corrective
actions. The risk ratings have no relationship to the definition, or our classification, of a control
deficiency as a material weakness or significant deficiency. The risk ratings, used in this context, are
not defined by Government Auditing Standards, issued by the Comptroller General of the United States,
or the American Institute of Certified Public Accountants (AICPA) Professional Standards, and do not
necessarily correlate to a significant deficiency, as defined by the AICPA Standards and reported in our
Independent Auditors’ Report on the FLETC consolidated financial statements, dated March 26, 2009.

Correction of some higher risk findings may help mitigate the severity of lower risk findings, and
possibly function as a compensating control. In addition, analysis was conducted collectively on all
NFRs to assess connections between individual NFRs, which when joined together, could lead to a
control weakness occurring with more likelihood and/or higher impact potential.

High Risk**: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the integrity
of the financial statements as a whole.

Medium Risk**: A control weakness that is less severe in nature, but in conjunction with other IT
general control weaknesses identified, may have a significant impact on the IT general control
environment and / or the integrity of the financial statements as a whole.

Low Risk**: A control weakness minimal in impact to the IT general control environment and / or the
integrity of the financial statements.




                                                  12
 Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                              Appendix B

                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




             Federal Law Enforcement Training Center 

                   FY2008 Information Technology 

          Notices of Findings and Recommendations – Detail 





                                           13
Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                    Appendix B

                                                   Department of Homeland Security 

                                              Federal Law Enforcement Training Center

                                               Information Technology Management Letter
                                                          September 30, 2008

                                                Department of Homeland Security

                                                              FLETC

                                                 FY2008 Information Technology 

                                        Notices of Findings and Recommendations – Detail 



                                                                                                                                            Risk
NFR #                       Condition                                     Recommendation                       New Issue   Repeat Issue
                                                                                                                                           Rating*
FLETC­    FLETC finalized and approved the Financial       We recommend that FLETC Ensure that access                           X          Medium
 IT-08­   Management         System       Configuration    to the            program libraries is limited to
   01     Management Standard Operating Procedures,        only the Administrators group.
          which detail testing procedures. This prior
          year condition will be reissued as the
          weakness has been in place for the majority of
          the fiscal year.

          The access group, “      \                 has
          modify, read, execute, and write access to the
                      application program libraries. We
          determined that this gives all FLETC domain
          level users modify, read, execute, and write
          access to the             application program
          libraries.




                                                                    14
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                     Appendix B

                                                   Department of Homeland Security
                                              Federal Law Enforcement Training Center
                                               Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                             Risk
NFR #                       Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                            Rating*
FLETC­    FLETC finalized and approved the Financial        �	   Continue with the projected plan for                            X          Medium
 IT-08­   Management         System       Configuration          decommissioning the
   02     Management Standard Operating Procedures,              application.     Develop and implement
          which detail testing procedures. This prior            policies and procedures over the
          year condition will be reissued as the                 configuration management process for
          weakness has been in place for the majority of                application level changes;
          the fiscal year.
                                                            �	   Ensure that access to the
          Due to the decommissioning of the                              program libraries is limited to only
          application, we learned that FLETC has not             the Administrators group.
          developed policies and procedures for
                                        bug fixes and
          enhancements. This prior year condition will
          be reissued as the weakness has been in place
          for the majority of the fiscal year.

          All    FLETC       domain      level    users
          inappropriately have modify, read, execute,
          and write access to the
          support files.
FLETC­    The installation of                   system      We      recommend       that    FLETC,      upon                     X          Medium
 IT-08­   software is not currently logged or reviewed      implementation of the        system, enable audit
   03
    by FLETC management.                              logging over the installation of
                                                            system software and ensure that logs are
                                                            maintained and proactively reviewed by
                                                            management.
FLETC­    The SDLC for              is currently in draft   1	 Finalize and implement a SDLC                                     X          Medium
 IT-08­   form.                                                 methodology guide for                FLETC
   04                                                           Directive and FLETC Manual. Ensure that
                                                                security planning has been incorporated
                                                                throughout the life cycle;

                                                            2	   Ensure that the SDLC methodology is
                                                                 promulgated to all personnel involved in the

                                                                      15
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                        Appendix B

                                                   Department of Homeland Security
                                              Federal Law Enforcement Training Center
                                               Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                                Risk
NFR #                       Condition                                       Recommendation                         New Issue   Repeat Issue
                                                                                                                                               Rating*
                                                                 design, development, and implementation
                                                                 process of the SDLC methodology.
FLETC-    We determined that FLETC has begun to              Consistently apply the new CIO Backup SOP                              X          Medium
 IT-08­   implement corrective actions to address the        and periodically test the             server level

   05
    prior year finding; however we learned that        and                   backups at least annually in

          FLETC 
              server level and              compliance with the DHS Sensitive System

                   backups are not periodically tested. 
    Policy Directive 4300A.
          Additionally, we noted that procedures or a
          testing schedule are not in place for
                      server level and
          backups.
FLETC-    The               contingency plan has not      �      Perform     corrective action over the                             X          Medium
 IT-08­   been fully tested. We determine that the                            Contingency Plan test results 

   06
    recovery and resumption procedures were not            and update the plan accordingly. 

          tested during the table-top test of the 
 �            Perform a test over the
                      contingency plan.                          Contingency Plan, covering all critical
                                                                 phases of the plan, on an annual basis.
FLETC-    The FLETC Computer Security Operations             No recommendation will be offered as the                               X          Medium
 IT-08­   Center and Computer Security Incident              condition was mitigated during the fiscal year 

   07
    Response Capability SOP, is currently in draft
          form. Additionally, we noted that incidents
          are not tracked from inception to resolution in
          an incident response management system.
FLETC-    We noted that incompatible duties over             Continue with the projected            plan    for                     X            Low
 IT-08­                          have not been identified    decommissioning the 

   08
    and that the                       administrator   application. 

          is no longer a procurement approver. However,

          policies and procedures have not been              

          developed to segregate incompatible duties. 





                                                                      16
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                    Appendix B

                                                    Department of Homeland Security 

                                               Federal Law Enforcement Training Center

                                                Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                            Risk
NFR #                        Condition                                      Recommendation                     New Issue   Repeat Issue
                                                                                                                                           Rating*
FLETC­    We determined that the procedures for granting      �   Document access procedures within the                         X           Low
 IT-08­   access to the Telecom Room have not been                Telecom Room Access SOP, including the
   09     documented and no user authorization form is            use of a user authorization form;
          used and maintained for access requests.            �   Update the Telecom Room Access SOP to
                                                                  include access granting procedures as well
          We noted that no documented procedures on re­           as re-entry procedures, and;
          entry into the facility after an emergency exist.
                                                              �   Perform training for Telecom Room staff
          FLETC also advised that all personnel on the
                                                                  and regular visitors over emergency
          Telecom Room access listing and regular
                                                                  procedures pertaining, but not limited to
          visitors to the Telecom Room are provided fire
                                                                  fire, water, and alarm procedures.
          suppression training. However, no supporting
                                                                  Additionally, formalize this training by
          documentation was provided to support this
                                                                  retaining documentation that all staff has
          effort.
                                                                  completed the training.




                                                                      17
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                   Appendix B

                                                    Department of Homeland Security 

                                               Federal Law Enforcement Training Center

                                                Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                           Risk
NFR #                        Condition                                    Recommendation                      New Issue   Repeat Issue
                                                                                                                                          Rating*
FLETC­    We found that FLETC Manual (FM) 4300:             �   Continue with their projected plan for                         X          Medium
 IT-08­   Information Technology System Security                decommissioning the
   10     Program and Policy, which establishes the             application.    Additionally, develop and
          policies to be followed when an employee or           implement      procedures    over   access
          contractor is separated or terminated, is             authorizations for
          currently in draft form.          Additionally,
                                     does not require       �   Develop and implement procedures to
          passwords to contain a combination of upper           periodically review the list of user
          and lower case letters and special characters.        accounts;

                                                            �   Finalize and implement FM 4300:
                                                                Information Technology System Security
                                                                Program and Policy, requiring the
                                                                immediate notification of terminated or
                                                                transferred users with FLETC IT accounts;

                                                            �   Ensure that the       application requires
                                                                a password to be a minimum of eight
                                                                characters in length and contain a
                                                                combination of alphabetic, numeric, and
                                                                special characters to be in compliance
                                                                with the DHS Sensitive System Policy
                                                                Directive 4300A.
FLETC­    We determined that the FLETC Directive            No recommendation will be offered as the                           X            Low
 IT-08­   (FD) 4320: IT System Security Awareness           condition was mitigated during the fiscal year.
   11     and Training is in draft form.
FLETC­    We determined that FLETC is in the process        We recommend that FLETC finalize and update                        X            Low
 IT-08­   of refining the FD/FM 4300 to be in               FD/FM 4300 based on the most recent version
   12     accordance with the DHS Sensitive System          of the DHS Sensitive System Policy Directive
          Policy Directive 4300A.                           4300A and implement the policy, which
                                                            provides policies and procedures over the
                                                            authorization and use of mobile code
                                                            technologies.

                                                                     18
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                        Appendix B

                                                     Department of Homeland Security 

                                                Federal Law Enforcement Training Center

                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                                Risk
NFR #                        Condition                                        Recommendation                       New Issue   Repeat Issue
                                                                                                                                               Rating*
FLETC­    We determined that FLETC has developed               Finalize and implement “FM 4300: Information                         X           Low
 IT-08­   policies and procedures to proactively monitor       Technology System Security Program and
   13     sensitive access to system software utilities        Policy,” which provides policies and procedures
          for              in the “FM 4300: Information        to proactively monitor sensitive access to system
          Technology System Security Program and               software utilities for
          Policy.” However, we noted that this policy is
          in draft form.
FLETC­    We determined that FLETC has developed               Finalize and implement “FM 4300: Information                         X            Low
 IT-08­   policies for restricting access to                   Technology System Security Program and
   14     system software in the “FM 4300: Information         Policy,” which provides policies for restricting
          Technology System Security Program and               access to           system software;
          Policy.” However, we noted that this policy is
          in draft form.
FLETC­    We noted that FLETC has developed policies           Finalize and implement the “FM 4300:                                 X            Low
 IT-08­   for the segregation of duties in the, “FM 4300:      Information Technology System Security
   15     Information Technology System Security               Program and Policy,” which provides policies
          Program and Policy.” However, we noted that          for segregation of duties in Momentum.
          the policy is currently in draft form.
FLETC­    We noted that FLETC has developed polices for        �   Continue to finalize and implement the “FM                       X          Medium
 IT-08­   the use of                                 (             4300: Information Technology System
   16     technologies,      “FM      4300:      Information       Security Program and Policy,” which
          Technology System Security Program and                   provides policies for the use of VoIP
          Policy.” However, we noted that the SOP is               technologies;
          currently in draft form.                             �   Conduct a security inspection of the
                                                                              installations by completing the
          Additionally, we learned that the security               FLETC         Security Checklist.
          inspections have not been applied to all VoIP
          networks, but is planned with the new
          Certification and Accreditation (C&A)
          scheduled in 2008.




                                                                        19
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                      Appendix B

                                                    Department of Homeland Security 

                                               Federal Law Enforcement Training Center

                                                Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                              Risk
NFR #                        Condition                                       Recommendation                      New Issue   Repeat Issue
                                                                                                                                             Rating*
FLETC­    During our FY 2008 review, we determined that        No recommendation will be offered since the                        X          Medium
 IT-08­   the FLETC has established a process where            condition was mitigated during the fiscal year.
   17     background checks and periodic reinvestigations
          for all new and existing contractors are
          performed in a timely manner and that
          supporting documentation be maintained.
          However, we noted a weakness in that two
          outstanding users still had access to the FLETC
          network. As a result, the FLETC responded
          immediately and removed both users’ access.
          However, since the risk was present the majority
          of the fiscal year, this NFR will be reissued
          without any recommendations
FLETC­    We noted that FLETC has developed polices for        �   Finalize and implement “FM 4300:                               X            Low
 IT-08­   the review of                          audit logs,       Information Technology System Security
   18     “FM 4300: Information Technology System                  Program and Policy,” which provides
          Security Program and Policy.” However, we                policies for the review of audit logs;
          noted that the SOP is currently in draft form.
          Additionally, we noted that FLETC has                �   Continue with the decommissioning plan of
          continued with the decommissioning of the                the                    application.
                                   application; however it
          has not been completed.
FLETC­    In FY 2008, FLETC stated that no progress has        We recommend that FLETC configure the                              X            Low
 IT-08­   been made on this weakness.               FLETC      FLETC domain level inactivity threshold of
   20     management recommended setting policy to 5           the password protected screensaver to five (5)
          minutes for all users and then to make               minutes to be in compliance with the DHS
          exceptions as needed for trainers who need it.       Sensitive System Policy Directive 4300A.
          FLETC management has submitted an
          exception waiver to DHS to waiver from the
          DHS Sensitive System Policy Directive 4300A.




                                                                        20
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                         Appendix B

                                                    Department of Homeland Security 

                                               Federal Law Enforcement Training Center

                                                Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                                 Risk
NFR #                        Condition                                        Recommendation                        New Issue   Repeat Issue
                                                                                                                                                Rating*
FLETC­    In FY 2008, we noted that FLETC is in the            We recommend that FLETC finalize and                                  X           Low
 IT-08­   process of finalizing and implementing FM            implement FM 4300: Information Technology
   21     4300: Information Technology System Security         System Security Program and Policy, and
          Program and Policy. Therefore, since the             promulgate to all necessary users.
          recommendation has not been fully addressed,
          NFR FLETC-IT-07-21 will be re-issued.
FLETC­    FLETC does not capture and maintain user             Continue with the         projected    plan   for                     X            Low
 IT-08­   access violations in                                 decommissioning the
   22                                                          application.
          We determined that FLETC has established a
          process which requires that all
                   users will only be granted access once
          the user access form is appropriately completed
          and subsequently approved by a supervising
          authority. Since this improvement was not in
          place for the majority of the fiscal year, the
          associated weakness will be reissued with no
          recommendation.

          We also determined that FLETC has made
          progress over the usage of prior passwords. The
          new process follows the DHS standard of eight
          iterations. Since this improvement was not in
          place for the majority of the fiscal year, the
          associated weakness will be reissued with no
          recommendation.
FLETC­    In FY 2008, we learned that FLETC has not            �   Perform a recertification of all                                  X            Low
 IT-08­   validated all users for                                            user access and validate the
   23     Additionally, FLETC has removed users that no            existing                        user access of
          longer have access, but, this process is not being       individuals who stated they still need
          performed consistently. Therefore, since the                                    access;
          finding has not been fully addressed, the NFR        �   Continue     to      consistently     remove
          will be re-issued.                                                              user access that is no
                                                                   longer needed.
                                                                        21
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                  Appendix B

                                                  Department of Homeland Security 

                                             Federal Law Enforcement Training Center

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                          Risk
NFR #                       Condition                                     Recommendation                     New Issue   Repeat Issue
                                                                                                                                         Rating*
FLETC­    FLETC provided the FLETC Financial                We recommend FLETC ensure that several                            X           Low
 IT-08­   Management System Contingency and                 updated    copies  of   the
   24     Disaster Recovery Plan, dated June 18, 2008.                            Contingency Plan is
          However, the contingency plan did not             located at the             site for use by
          contain evidence to support that the document     contingency staff.
          is stored offsite.
FLETC­    During the FY 08 follow-up, we received the       As FLETC has effectively implemented the new                      X            Low
 IT-08­   finalized SOP 4203 IT Systems Maintenance         policies  effective     April   2008,     no
   25     Management, effective as of April 29, 2008, and   recommendation will be offered.
          4204 Anti-Virus for Servers, effective as of
          April 29, 2008. This NFR will be reissued with
          no recommendation since the condition has
          existed for the majority of the fiscal year.
FLETC­    During technical testing, configuration           �   Implement the corrective actions noted in                     X          Medium
 IT-08­   management weaknesses were identified on              the findings.
   26     hosts and databases supporting the                �   Perform periodic scans of the FLETC
                   System,               and                    network environment, including the
                    applications.                               financial processing environment, for the
                                                                identification of vulnerabilities, in
                                                                accordance with NIST Special Publication
                                                                (SP) 800-42.
                                                            �   Implement corrective actions to mitigate
                                                                the     risks    associated    with    any
                                                                vulnerabilities identified during periodic
                                                                scans.




                                                                     22
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                  Appendix B

                                                    Department of Homeland Security
                                               Federal Law Enforcement Training Center
                                                Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                          Risk
NFR #                        Condition                                    Recommendation                     New Issue   Repeat Issue
                                                                                                                                         Rating*
FLETC-    During technical testing, patch management        �	  Implement the corrective actions noted in                     X          Medium
 IT-08­   weaknesses were identified on hosts and               the findings. 

   27
    databases supporting the




                                                             	
                                                            � Perform periodic scans of the FLETC
                  and                        application.       network environment, including the
          The fact that these vendor supplied patches           financial processing environment, for the
          have not been applied in a timely manner              identification of vulnerabilities, in
          could allow a remote attacker to gain                 accordance with NIST SP 800-42.
          unauthorized access on the host or database.




                                                             	
                                                            � Implement corrective actions to mitigate
                                                                the     risks    associated    with    any
                                                                vulnerabilities identified during periodic
                                                                scans.
FLETC-    In	 FY 2008, we learned that                      Continue with the projected plan for                              X          Medium
 IT-08­              is still in production; however, no    decommissioning the 

   29
    backups are being tested. FLETC management        application
          stated       that
          decommissioning is planned for the first quarter
          of FY 08, however at the time of the audit, has
          not been completed.
FLETC-    During FY 2008 testing of controls after No recommendation will be offered since the                  X                        Medium
 IT-08­                   conversion, we determined that weakness was remediated upon notification. 

   30
    four (4) support contractors and an additional

          user account used by the support contractor 

          called “Object CORE admi” had superuser

          access privileges within 
            Based on 

          notification of this weakness, FLETC 

          management responded by removing the access

          as of September 24, 2008. Therefore, this 

          finding will be issued with no recommendation. 





                                                                    23
               Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                                                         Appendix B

                                                         Department of Homeland Security 

                                                    Federal Law Enforcement Training Center

                                                     Information Technology Management Letter
                                                                September 30, 2008

                                                                                                                                                  Risk
     NFR #                        Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                                 Rating*
     FLETC­    During FY 2008, we noted that the                   We recommend that application system                  X                       Medium
      IT-08­   application will allow “3 unsuccessful attempts”    administrators review security and system-
        31     before the user will be locked out of the           related event logs on a periodic basis.
               application. The application will track these
               security violations into an audit log; however,
               the FLETC does not perform a periodic review
               of the log.
     FLETC­    During FY 2008 testing of controls after            �   Evaluate the access rights for all roles          X                       Medium
      IT-08­                  conversion, we determined that           within               and separate the duties
        32     the segregation of duties controls were not             for the creation and payment of vouchers.
               effective. Specifically, we found that the          �   Develop a process to ensure the segregation
               ‘Accountant-1’ role has the ability to create and       of duties between the Accountant roles is
               approve payment vouchers within                         maintained.




* Risk ratings are only intended to assist management in prioritizing corrective actions. Risk ratings in this context do not correlate to
definitions of control deficiencies as identified by the AICPA.




                                                                            24
                    Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                Appendix C

                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




                                    Appendix C 


Status of Prior Year Notices of Findings and Recommendations And 

                          Comparison To 

     Current Year Notices of Findings and Recommendations 





                                           25
Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                        Appendix C

                                      Department of Homeland Security
                                 Federal Law Enforcement Training Center
                                  Information Technology Management Letter
                                             September 30, 2008




                                                                                                   Disposition
Component    NFR #                                Description                                  Closed     Repeat

 FLETC      FLETC­ The Change Control and Configuration Management SOP for all                          FLETC-IT-
            IT-07-01 preventative maintenance and patch management over               is                  08-01
                     currently in draft form. Additionally, the Change Control and
                     Configuration Management SOP does not detail testing procedures.
                     Documented policies and procedures for                 bug fixes and
                     enhancements do not exist, including a description for the emergency
                     change process.
                     The access group, “     \               has modify, read, execute, and
                     write access to the               application program libraries. We
                     determined that this gives all FLETC domain level users modify, read,
                     execute, and write access to the                 application program
                     libraries.
 FLETC      FLETC­ The Change Control and Configuration Management SOP for all                          FLETC-IT­
            IT-07-02 preventative maintenance and patch management over                                   08-02 

                              is currently in draft form. Additionally, the Change Control
                     and Configuration Management SOP does not detail testing
                     procedures.
                     Documented policies and procedures for                          bug
                     fixes and enhancements do not exist, including a description for the
                     emergency change process.
                     All FLETC domain level users inappropriately have modify, read,
                     execute, and write access to the               support files.
 FLETC      FLETC­ The installation of          system software is not currently logged                 FLETC-IT­
            IT-07-03 or reviewed by FLETC management.                                                     08-03
 FLETC      FLETC­ The SDLC for                is currently in draft form.                              FLETC-IT­
            IT-07-04                                                                                      08-04
 FLETC
     FLETC­                 server level and 
           database backups are not
               FLETC-IT­
            IT-07-05 periodically tested.                                                                 08-05
                     Procedures or a testing schedule are not in place for           server
                     level and        database backups.
 FLETC
     FLETC- The 
                contingency plan has not been fully tested. We
                 FLETC-IT­
            IT-07-06 determine that the recovery and resumption procedures were not tested                08-06
                     during the table-top test of the         contingency plan.
 FLETC
     FLETC- FLETC Computer Security Operations Center and Computer Security
                     FLETC-IT­
            IT-07-07 Incident Response Capability SOP, is currently in draft form.                        08-07
                     We noted that incidents are not tracked from inception to resolution in
                     an incident response management system.
 FLETC       FLETC- We noted that incompatible duties over                         have not             FLETC-IT­

                                                         26
   Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                         Appendix C

                                      Department of Homeland Security 

                                 Federal Law Enforcement Training Center

                                  Information Technology Management Letter 

                                             September 30, 2008

                                                                                                    Disposition
Component   NFR #                                 Description                                   Closed     Repeat

            IT-07-08 been identified nor have policies and procedures been developed to                    08-08
                     segregate incompatible duties.
 FLETC      FLETC­ We determined that FLETC has documented procedures entitled,                          FLETC-IT­
            IT-07-09 “Telecom Room Access Standard Operating Procedures”, which are                        08-09 

                     currently in draft form.
                     All personnel on the Telecom Room access listing and regular visitors
                     to the Telecom Room will have fire suppression training provided.
                     However, FLETC failed to provide the fire suppression training
                     materials or a listing of individuals who attended the training.
 FLETC      FLETC­ Procedures over access authorizations and the periodic review of user                 FLETC-IT­
            IT-07-10 accounts for                    do not exist.                                         08-10 

                     FLETC Manual (FM) 4300: Information Technology System Security
                     Program and Policy establishes the policies to be followed when an
                     employee or contractor is separated or terminated, which is currently in
                     draft form.
                     We found that termination SOPs for                    and
                            are currently under development.
                                            does not require passwords to contain a
                     combination of upper and lower case letters and special characters.
 FLETC
     FLETC- We determined that the FLETC Directive (FD) 43220: IT System
                         FLETC-IT­
            IT-07-11 Security Awareness and Training is in draft form.                                     08-11
 FLETC
     FLETC- We determined that FLETC has developed policies and procedures
                       FLETC-IT­
            IT-07-12 over the authorization and use of mobile code technologies in “FM                     08-12
                     4300: Information Technology System Security Program and Policy.”
                     However, we noted that this policy is in draft form.
 FLETC      FLETC- We determined that FLETC has developed policies and procedures to                     FLETC-IT­
            IT-07-13 proactively monitor sensitive access to system software utilities for                 08-13
                     Momentum in the “FM 4300: Information Technology System Security
                     Program and Policy.” However, we noted that this policy is in draft
                     form.
 FLETC      FLETC­ We determined that FLETC has developed policies for restricting                       FLETC-IT­
            IT-07-14 access to                system software in the “FM 4300: Information                 08-14 

                     Technology System Security Program and Policy.” However, we
                     noted that this policy is in draft form.
                     We noted that FLETC has developed procedures for restricting access
                     to privileged and sensitive access including                 system
                     software in the Logical Access Controls - SOP, which is currently in
                     draft form.
 FLETC      FLETC- We noted that FLETC has developed policies for the segregation of                     FLETC-IT­
            IT-07-15 duties in the, “FM 4300: Information Technology System Security                       08-15
                     Program and Policy.” However, we noted that the policy is currently in

                                                         27

   Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                         Appendix C

                                        Department of Homeland Security
                                   Federal Law Enforcement Training Center
                                    Information Technology Management Letter
                                               September 30, 2008

                                                                                                    Disposition
Component   NFR #                                 Description                                   Closed     Repeat

                     draft form.
                     We noted that FLETC has developed procedures for the segregation of
                     duties in the, “Logical Access Controls – SOP”, which is currently in
                     draft form.
 FLETC      FLETC­ We noted that FLETC has developed polices for the use of VOIP                         FLETC-IT­
            IT-07-16 technologies, “FM 4300: Information Technology System Security                        08-16 

                     Program and Policy.” However, we noted that the SOP is currently in
                     draft form.
                     The         hardening guide and SOP are currently in development and
                     not finalized.
                     We determined that FLETC has not completed a security assessment of
                     the            site’s    installation.
 FLETC      FLETC­ We sampled thirty (30) IT contractors for evidence of background                      FLETC-IT­
            IT-07-17 investigations and noted the following:                                               08-17 

                     �	 Nine (9) IT contractors did not have evidence that a background
                         investigation was initiated or completed; and
                     �	 For twelve (12) IT contractors, we were not able to validate if
                         background investigations were initiated or adjudicated, due to a
                         lack of documentation or poor documentation of background
                         investigations initiated.
 FLETC      FLETC­ We determined that FLETC has developed polices for the review of                      FLETC-IT­
            IT-07-18                           audit logs in the, “FM 4300: Information                    08-18 

                     Technology System Security Program and Policy.” However, we
                     noted that the policy is currently in draft form.
                     Procedures around the detailed review of audit records do not exist.
                     Audit logs are not maintained for                                on an
                     application level.
 FLETC
     FLETC- We noted that the FLETC 
         is configured to trigger a domain level
            FLETC-IT­
            IT-07-20 password protected screensaver after twenty (20) minutes of inactivity                08-20
                     on user workstations, which is not in compliance with the DHS
                     Sensitive System Policy Directive 4300A.
 FLETC      FLETC­ We noted that FM 4300: Information Technology System Security                         FLETC-IT­
            IT-07-21 Program and Policy documents policies for the following areas:                        08-21 

                     �	 Use of cryptographic tools over the FLETC
                     �	 Use of wireless technologies; and
                     �   Data sharing with external parties outside of FLETC.
                     However, we noted that the policy is currently in draft form.



                                                         28

   Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                         Appendix C

                                      Department of Homeland Security 

                                 Federal Law Enforcement Training Center

                                  Information Technology Management Letter
                                             September 30, 2008

                                                                                                    Disposition
Component   NFR #                                 Description                                   Closed     Repeat

 FLETC      FLETC­ The following                           access control weaknesses were                FLETC-IT­
            IT-07-22 identified:                                                                           08-22
                     �   User access violation information is not maintained on an
                         application level;
                     �   All new users (a total of eight) requesting access to
                                 failed to have an authorized access request form.
                     �   Password parameters have been configured to permit users to reuse
                         prior passwords after six (6) iterations; and
                     �   The                          Administrator is not informed of
                         separated employees via Human Resources (HR), thus, terminated
                         employees access is not removed in a timely manner.
                     Upon notification of this issue, FLETC took corrective action and the
                                           Administrator is now on the listing of individuals
                     who are informed when an employee is separated.
 FLETC      FLETC­ The following                           access control weaknesses were                FLETC-IT­
            IT-07-23 identified:                                                                           08-23
                     �   Lack of documented procedures to recertify users logical access on
                         a yearly basis; and
                     �   Recertification of                         users is not performed
                         over all users.
 FLETC      FLETC­ We noted that copies of the                 /                                         FLETC-IT­
            IT-07-24 Contingency Plan are not securely stored off-site at the alternate                    07-24
                     processing facility.
 FLETC      FLETC­ The following               and                         service continuity            FLETC-IT­
            IT-07-25 weaknesses were identified:                                                           08-25
                     �   FLETC SOP - Anti-Virus Software for Servers is not finalized; and
                     �   FLETC SOP - System Maintenance Policy and Procedures is not
                         finalized.
 FLETC      FLETC­ During technical testing, configuration management weaknesses were                    FLETC-IT­
            IT-07-26 identified on hosts and databases supporting the                                      08-26
                                        and                     applications.
 FLETC      FLETC­ During technical testing, patch management weaknesses were                            FLETC-IT­
            IT-07-27 identified on hosts and databases supporting the                                      08-27
                              and              Desktop application. The fact that these
                     vendor supplied patches have not been applied in a timely manner
                     could allow a remote attacker to gain unauthorized access on the host
                     or database.



                                                         29
   Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                                                                                                          Appendix C

                                       Department of Homeland Security 

                                  Federal Law Enforcement Training Center

                                   Information Technology Management Letter
                                              September 30, 2008

                                                                                                      Disposition
Component    NFR #                                 Description                                  Closed       Repeat

 FLETC      FLETC- We noted that                   and                          server backup     X
            IT-07-28 tape rotation logs are not consistently maintained.
 FLETC      FLETC- We noted that                             server level and        database             FLET-IT-08­
            IT-07-29 backups are not periodically tested.                                                     29
                      We noted that procedures or a testing schedule are not in place for
                                          server level and      database backups.




                                                            30

   Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




                                     Appendix D 


                             Management Comments 





                                           31

Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008




                                           32

Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
                             Department of Homeland Security 

                        Federal Law Enforcement Training Center

                         Information Technology Management Letter
                                    September 30, 2008

                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 Chief of Staff for Operations
                 Chief of Staff for Policy
                 Acting General Counsel
                 Executive Secretariat
                 Under Secretary, Management
                 Director, FLETC
                 DHS Chief Information Officer
                 DHS Chief Financial Officer
                 Chief Financial Officer, FLETC
                 Chief Information Officer, FLETC
                 Chief Information Security Officer
                 Assistant Secretary, Policy
                 Assistant Secretary, Public Affairs
                 Assistant Secretary, Legislative Affairs
                 DHS GAO OIG Audit Liaison
                 Chief Information Officer, Audit Liaison
                 FLETC Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees as Appropriate




                                           33

Information Technology Management Letter for the FY 2008 FLETC Financial Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
